Accentra Credit Union
400 Fourth Ave NE
Austin, Minnesota 55912
Phone: (507) 433-1829 or (800) 533-0448
Fax: (507) 434-3300
www.accentracu.org

TRUTH-IN-LENDING DISCLOSURE
STATEMENT - ACCOUNT OPENING DISCLOSURES

BORROWER 1 NAME

ACCOUNT NUMBER

BORROWER 2 NAME

DATE

The following disclosure represents important details concerning your credit card. This statement is incorporated into and
becomes a part of your Credit Card Agreement. We reserve the right to periodically review your credit standing and to
increase any rate on your new balances, in accordance with applicable law.
INTEREST RATES and INTEREST CHARGES:
Annual Percentage Rate (APR)
for Purchases, Cash Advances,
& Balance Transfers

0.000 %

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not
charge you interest on purchases if you pay your entire balance by the due date
each month. We will begin charging interest on cash advances and balance transfers
on the date the cash advance or balance transfer is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
• Annual Fee:

None

• Account Set Up Fee:

25.00
$__________
(charged at the time you open the card, and at the time any requested
credit limit increase is approved)

Transaction Fees
• Balance Transfer:

None

• Cash Advance:

None

• Foreign Transaction:

1.00% of each transaction in U.S. dollars if the transaction involves a currency conversion
0.80% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion

Penalty Fees
• Late Payment:

Up to $20.00 if your payment is 20 or more days late

• Over-the-Credit Limit:

None

• Returned Payment:

Up to $15.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See your
account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.
SEE NEXT PAGE for more important information about this account
9010 LASER ML FI16280 Rev 9-2015

page 1 of 2

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

OTHER IMPORTANT DISCLOSURES:
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS
AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS
AGREEMENT. YOU ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR
FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account that would lose special tax treatment under
state or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also secure your obligations under this Agreement, unless
that other collateral is your principal residence or non-purchase money household goods.

0.00000
Daily Periodic Rate: Purchases; Cash Advances; Balance Transfers: _______________%.
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Document/Statement Copy Fee: $5.00
Card Replacement Fee:
$10.00
Minimum Payment Requirement: 2.5% of the outstanding balance, subject to a minimum of $20.00.
0.00
Credit Limit: $_______________.

page 2 of 2

Save

